APPENDIX A

Case: 20-1997

Document: 11-1

Filed: 06/30/2021

(1 of 2)

Page: 1

No. 20-1997
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MICHAEL JEROME PETTWAY,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

FILED
Jun 30, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: GRIFFIN, KETHLEDGE, and MURPHY, Circuit Judges.
Michael Jerome Pettway petitions for rehearing en banc of this court’s order entered on
April 8, 2021, denying his application for a certificate of appealability. The petition was initially
referred to this panel, on which the original deciding judge does not sit. After review of the petition,
this panel issued an order announcing its conclusion that the original application was properly
denied. The petition was then circulated to all active members of the court, none of whom
requested a vote on the suggestion for an en banc rehearing. Pursuant to established court
procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

©

Neutral
, As of: September 28,2021 5:24 PM Z

Pettway v. United States
United States Court of Appeals for the Sixth Circuit
April 8, 2021, Filed
No. 20-1997
Reporter
2021 U.S. App. LEXIS 10246 *

MICHAEL JEROME PETTWAY. Petitioner-Appellant, v.
UNITED STATES OF AMERICA, Respondent-Appellee.
Prior History: United States v. Pettwav. 2020 U.S.
Dist LEXIS 167209 ( E.D. Mich.. Sent. 14. 2020)

Core Terms
ineffective, firearm, plea agreement, guilty plea,
possessed, district court, sentence, jurists, factual basis,
indictment, knowingly, notice, drugs
Counsel: f*11 For MICHAEL JEROME PETTWAY.
Petitioner - Appellant: Michael Jerome Pettwav. F.C.I.
Morgantown, Morgantown, WV.
For UNITED STATES OF AMERICA, Respondent Appellee: John N. O'Brien II, Assistant U.S. Attorney,
United States Attorney's Office, Detroit, Ml.
Judges: Before: SUHRHEINRICH, Circuit Judge.

Opinion

ORDER
Michael Jerome Pettwav. a federal prisoner proceeding
pro se, appeals a district court order denying his motion
to vacate his sentence under 28 U.S.C. $ 2255.
Pettwav has filed an application for a certificate of
appealability ("COA"). See Fed. R. App. P. 22(b). He
also moves to proceed in forma pauperis on appeal.
In 2018, Pettwav pleaded guilty to four counts of
possessing controlled substances with the intent to
distribute, in violation of 21 U.S.C. 8 841(a)(1) (countsl4), possessing a firearm in furtherance of a drug
trafficking crime, in violation of 18 U.S.C. 8 924(c)

(count 5), and being a felon in possession of a firearm,
in violation of 18 U.S.C. 5922(a) (count 6). Pursuant to a
written plea agreement, Pettwav waived his right to
appeal unless his sentence exceeded 131 months of
imprisonment, excluding claims of ineffective assistance
of counsel. The district court sentenced him to a total of
120 months of imprisonment. Pettwav did not appeal.
In 2019, Pettwav filed his $ 2255 motion, [*2] claiming
that: (1) counsel was ineffective for not objecting to the
district court's alleged failure to explain the essential
elements of his crimes as required under Federal Rule
of Criminal Procedure 11(b)(1)(G): (2) there was an
insufficient factual basis to support his guilty plea to
count 5, possessing a firearm in furtherance of a
drugtrafficking crime, as required under Rule 11(b)(3);
(3) counsel was ineffective for failing to file a pretrial
motion to dismiss count 5 of the indictment because the
indictment did not include the word "knowingly"; and (4)
counsel was ineffective for advising him that he could
not file a notice of appeal in light of the appellate waiver
contained in his plea agreement and not consulting with
him about filing an appeal, in violation of Roe v. FloresOrteoa. 528 U.S. 470. 477-78. 480. 120 S. Ct. 1029.
145 L. Ed. 2d 985 12000).
The district court denied the $ 2255 motion, concluding
that: (1) Pettwav failed to establish that counsel was
ineffective because the nature of each charge was set
forth in his plea agreement and Pettwav acknowledged
that he reviewed the plea agreement with counsel; (2)
there was a sufficient factual basis to support Pettway's
guilty plea to count 5 because he acknowledged that he
possessed the firearms discovered in his home in order
"to protect the drugs" and "any proceeds" [*3] from the
sale of drugs; (3) counsel was not ineffective for failing
to move to dismiss count 5 because the indictment was
not required to include the word "knowingly"; and (4)
counsel was not ineffective for failing to consult with
Pettwav about filing a notice of appeal because he
agreed to waive his right to appeal if his sentence did
not exceed 131 months. Pettwav appeals and seeks a

Page 2 of 3
2021 U.S. App. LEXIS 10246, *3
COA with respect to each of his claims.
A COA may issue "only if the applicant has made a
substantial showing of the denial of a constitutional
right." 28 U.S.C. $ 2253(c)(2): Miller-El v. Cockrell. 537
U.S. 322. 336. 123 S. Ct. 1029. 154 L. Ed. 2d 931
(2003). When the district court's denial is on the merits,
"[t]he petitioner must demonstrate that reasonable
jurists would find the district court's assessment of the
constitutional claims debatable or wrong." Slack v.
McDaniel. 529 U.S. 473. 484. 120 S. Ct. 1595. 146 L.
Ed. 2d 542 (2000). Pettway has not met this burden.
Reasonable jurists would not debate the district court's
rejection of Pettway’s claims that counsel rendered
ineffective assistance. To prove an ineffectiveassistance claim, a movant must show, that his
attorney's performance was objectively unreasonable
and that he was prejudiced as a result. Strickland v.
Washington. 466 U.S. 668. 687. 104 S. Ct. 2052. 80 L.
Ed. 2d 674 (1984). In the plea context, a movant can
establish prejudice by showing "that there is a
reasonable probability that, but for counsel’s [*4] errors,
he would not have pleaded guilty and would have
insisted on going to trial," Hill v. Lockhart. 474 U.S. 52.
59. 106 S. Ct. 366. 88 L. Ed. 2d 203 (1985). "that the
end result of the criminal process would have been
more favorable by reason of a plea to a lesser charge or
a sentence of less prison time," Missouri v. Frye. 588
U.S. 134. 147. 132 S. Ct. 1399. 182 L. Ed. 2d 379
(2012). or "that counsel's deficient performance infected
his decisionmaking process, and thus undermines
confidence in the outcome of the plea process,"
Rodriauez-Penton v. United States. 905 F.3d 481. 488
(6th Cir. 2018) (citing Lee v. United States. 137 S. Ct.
1958. 1967. 198 L. Ed. 2d 476 (2017)).
Pettway claims that counsel was ineffective for failing to
object to the district court's alleged non-compliance with
Rule 11(h)(1)(G). which requires a district court to
"inform the defendant of, and determine that the
defendant understands,... the nature of each charge to
which the defendant is pleading" before accepting a
defendant's guilty plea. In particular, Pettway claims
that he was not informed that the <$ 924(c) offense
charged in count 5 required knowing possession of a
firearm in furtherance of a drug-trafficking crime. But
reasonable jurists would agree that counsel's failure to
object was not objectively unreasonable. The plea
agreement accurately set forth the elements of count 5,
tracking the language of § 924(c)(1)(A), which does not
include the word "knowingly." The agreement also set
out the factual basis for [*5] the plea, including that

Pettway possessed three firearms for the purpose of
protecting himself, the house in which the firearms were
found, and drugs and proceeds of drug sales. At the
plea hearing, the government recited the substance of
the plea agreement, noting that it set out the elements
of the charged offenses and the factual basis for the
plea. And the district court confirmed that Pettway had
reviewed the plea agreement with his attorney and
understood it. On this record, there was no basis to
object that the district court had not adequately informed
Pettway of the elements of count 5.
Next, Pettway claims that counsel was ineffective for
failing to move to dismiss count 5 of the indictment.
Reasonable jurists could not debate the district court's
rejection of this claim. As noted above, $ 924(c)(1)(A)
does not include the word "knowingly,” so the absence
of that word from count 5 did not render the indictment
defective. See, e.g., United States v. Anderson. 605
F.3d 404. 411 (6th Cir. 2010). Count 5 essentially
tracked the statutory language by alleging that Pettway
"possess[ed]" firearms "in furtherance of a drug
distribution offense." That language adequately conveys
the mens rea of "knowingly," as it is difficult to conceive
of how a defendant [*6] could possess a firearm in
furtherance of a particular objective without knowing that
he possessed the firearm. Reasonable jurists would
agree that counsel's failure to move for dismissal of
count 5 was neither objectively unreasonable nor
prejudicial.
Pettway has not made a substantial showing that
counsel was ineffective for failing to consult with him
about pursuing a direct appeal. In order to establish
ineffective assistance in this regard, Pettway must
demonstrate that either (1) the attorney disregarded his
instructions to file a notice of appeal, or (2) the attorney
failed to consult with him about an appeal when counsel
knew or should have known that he might want to
appeal. See Flores-Orteaa. 528 U.S. at 477-78. 480.
The district court arguably erred when it concluded that
Pettway’s claim necessarily lacked merit in light of the
appeal waiver in his plea agreement. The waiver
provision preserved Pettway’s right to raise ineffectiveassistance claims on appeal, and it could not bar him
from attacking the validity of the plea agreement or the
appeal waiver itself. But Pettways claim still falls short
because he failed to allege facts indicating that counsel
knew or should have known that he might want to
appeal. [*7] Pettway does not allege that he advised
counsel to file a notice of appeal or even that he advised
counsel that he was interested in pursuing an appeal,
And Pettway has not identified any potential error that

Page 3 of 3
2021 U.S. App. LEXIS 10246, *7
would have placed counsel on notice that Pettway
• might want to appeal. After all, Pettwav pleaded guilty
and received the minimum sentence contemplated by
his plea agreement. His current challenges to the
validity of his guilty plea are not colorable, for the
reasons expressed here. In these circumstances,
Pettwav has not made a substantial showing that
counsel's performance ran afoul of Flores-Orteaa.
Finally, reasonable jurists could not debate the district
court's determination that there was a sufficient factual
basis for Pettway's guilty plea to possessing a firearm in
furtherance of a drug-trafficking crime. Pettwav
admitted at the plea hearing that he possessed the
firearms discovered in his home and that he did so in
order "to protect the drugs" and "any proceeds" from the
sale of drugs.
Accordingly, Pettway/s application for a COA is
DENIED, and the motion to proceed in forma pauperis is
DENIED as moot.

End of Document

APPENDIX B

Case 2:17-cr-20543-BAF-APP ECF No. 51, PagelD.235 Filed 09/01/20 Page 1 of 5

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

Criminal No. 17-CR-20543
Civil Action No. 19-CV-12590

vs.
HON. BERNARD A. FRIEDMAN
MICHAEL JEROME PETTWAY,
Defendant.
OPINION AND ORDER DENYING DEFENDANT’S 8 2255 MOTION
This matter is presently before the Court on defendant’s motion to vacate his
sentence pursuant to 28 U.S.C. § 2255 [docket entry 41]. The government has responded and
defendant has replied. Pursuant to E.D. Mich. LR 7.1(f)(2), the Court shall decide this motion
without a hearing. For the following reasons, the Court shall deny the motion.
In August 2017, defendant was charged in a six-count indictment. The charges
were for the following drug and firearms offenses: possession of 28+ grams of crack cocaine,
in violation of 21 U.S.C. § 841 (Count I); possession of cocaine with intent to distribute, in
violation of 21 U.S.C. § 841 (Count II); possession of heroin with intent to distribute, in
violation of 21 U.S.C. § 841 (Count III); possession of suboxone with intent to distribute, in
violation of 21 U.S.C. § 841 (Count IV); possession of several firearms in furtherance of a
controlled substance distribution offense, in violation of 18 U.S.C. § 924(c) (Count V); and
felon in possession of firearm and ammunition, in violation 18 U.S.C. § 922(g)(1) (Count VI).
In June 2018, defendant entered into a Rule 11 Plea Agreement wherein he agreed
to plead guilty to all charges. The parties agreed that the sentence would not exceed the top of
defendant’s guideline range (117-131 months) and that the sentence would not be less than 120

Case 2:17-cr-20543-BAF-APP ECF No. 51, PagelD.236 Filed 09/01/20 Page 2 of 5

months, as two mandatory minimum 60-month sentences applied. The parties also agreed to the
following factual basis for the plea:
On or about June 29, 2017, the FBI assisted the Westland
Police Department in connection with the search of a house at
7765 Rosemont in the city of Detroit. Information obtained by the
Westland Police revealed that illegal narcotics including cocaine
and heroin were being sold from the house.
Upon approaching the house, defendant Jerome Pettway
was located on the front porch. He was taken into custody and he
and his house were searched. Taken from Mr. Pettway personally
was $354.00, 2 cellular telephones and a plastic bag containing
crack cocaine and heroin. The search of the house resulted in the
recovery of a box of Suboxone strips, crack cocaine, powder
cocaine, and the following firearms: 1 Bushmaster AR-15 semi­
automatic rifle... that was previously stolen from the true owner;
Winchester .12 gauge shotgun with a barrel length of less than 18
inches, . . . and 1 Browning semi-automatic handgun .... Law
enforcement also recovered $3247.50 and digital scales. Mr.
Pettway possessed the controlled substances with intent to sell or
deliver them to other people. Additionally, Mr. Pettway possessed
the firearms to protect himself, the house on Rosemont and drugs
and money generated from drug sales.
At the time of the search, Pettway had previously been
convicted of a felony offense. The crack cocaine that was seized
weighed in excess of 28 grams and the firearms in Mr. Pettway’s
possession had been manufactured outside of the state of
Michigan.
Rule 11 Plea Agreement f 1C.
At the plea hearing, defendant testified that he had read the plea agreement,
discussed it with his attorney, understood it, agreed to all of its terms, and had signed it. Plea
Hr’g Tr. at 8. Defendant further testified that he understood and waived his right to go to trial.
Id. at 8-10. Defendant also agreed to the factual basis that the prosecutor placed on the record,
which tracked the factual basis in the plea agreement. Id. at 11 -13. The Court accepted the plea
and sentenced defendant to 120 months’ imprisonment (60 months concurrently on Counts I, II,

2

Case 2:17-cr-20543-BAF-APP ECF No. 51, PagelD.237 Filed 09/01/20 Page 3 of 5

%

III, IV, and VI> and 60 months consecutively on Count V), the lowest possible sentence.
In his § 2255 motion, defendant argues that his sentence should be vacated for
four reasons. Defendant first argues that his attorney was ineffective by failing to object to “the

$1

«i

i

Court’s failure to explain the essential elements of his six counts... as required pursuant to the
Federal Rules of Criminal Procedure 11(b)(1)(G).” The Court rejects this argument. Rule
11 (b)(1)(G) requires the Court to inform a defendant of “the nature of each charge to which the

c

i.

>■

defendant is pleading.” The nature of the charges was set forth in detail in the Rule 11 Plea
Agreement, which, according to defendant’s testimony at the plea hearing, defendant read,
discussed with his attorney, understood, and signed. The nature of the charges was further
explained at the plea hearing.

V,

Second, defendant argues that there Was an insufficient factual basis to support
the plea as to Count V, in violation of Fed. R. Crim. P. 11(b)(3), and that his lawyer was

ii

A

%

■j

ineffective for failing to object on this basis. The Court rejects this argument. Under Fed. R.
Crim. P. 11(b)(3), the Court “must determine that there is a factual basis for the plea” before
accepting it. The factual basis for all of the charges in this matter was plainly spelled out in the
plea agreement and at the plea hearing. In particular as regards Count V, which charged
defendant with possession of three firearms in furtherance of a controlled substance distribution

¥

offense, in violation of 18 U.S.C. § 924(c), the factual basis was that defendant possessed
several firearms for the purpose of protecting his drug dealing operation. At the plea hearing,
defendant agreed that he knew these firearms, which were discovered during the search of his
house, were in his house and that he possessed them “to protect the drugs, or protect any

*
*

proceeds if you would have been able to successfully sell drugs.” Plea Hr’g Tr. at 12-13.

3

-I

Case 2:17-cr-20543-BAF-APP ECF No. 51, PagelD.239 Filed 09/01/20 Page 5 of 5

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served upon counsel of record and any
unrepresented parties via the Court's ECF System to their respective email or First Class U.S. mail addresses
disclosed on the Notice of Electronic Filing on September 1,2020.
Michael Jerome Pettway, 55989-039
Milan Federal Correctional Institution
Inmate Mail/Parcels
P.O.BOX 1000
MILAN, MI 48160

s/Johnetta M. Currv-Williams
Case Manager

5

